No. 20A63
In the Supreme Court of the United States

DONALD J. TRUMP, President of the United States,
Applicant,
v.
CYRUS R. VANCE, JR., in his official capacity as District Attorney of the County of
New York; MAZARS USA, LLP,
Respondents.
CERTIFICATE OF SERVICE
I, William S. Consovoy, caused three copies of the enclosed Reply in Support of
the Emergency Application for Stay to be filed with the Clerk of the Supreme Court
of the United States via hand delivery, and to be served on the following by first-class
mail and email:
Carey R. Dunne
N.Y. County District Attorney’s Office
One Hogan Place
New York, NY 10013
212-335-9216
dunnec@dany.nyc.gov

Thomas R. Manisero
Wilson Elser Moskowitz Edelman
& Dicker LLP
1133 Westchester Avenue
White Plains, NY 10604
(914) 323-7000
maniserot@wemed.com

Dated: October 19, 2020

s/ William S. Consovoy
William S. Consovoy
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel of Record for Applicant

